          Office of Inspector General




August 11, 2005

RUDOLPH K. UMSCHEID
VICE PRESIDENT, FACILITIES

SUBJECT: Management Advisory – Data Integrity and Reliability of the Facilities Single
         Source Provider System (Report Number FA-MA-05-002)

This report presents the results of our review of the data integrity and reliability of
selected aspects of the Facilities Single Source Provider (FSSP) system. We initiated
this review as a result of data reliability issues we identified during our audit of
Maintenance Offices’ Acceptance of Facilities’ Repair and Alterations Projects in the
Southeast Area (Project Number 05XG012FA001). The Postal Service requested we
expand our scope to include a review of data collected through the Response Line in
Postal Service areas that have implemented the FSSP system.

                                        Background

Facilities is an enabling organization within the Postal Service whose primary mission is
to provide quality real estate and facilities products and services that meet the present
and future needs of Postal Service operations and realize optimum value from facilities
assets and transactions. Facilities is comprised of a headquarters’ organizational unit,
with eight supporting Facilities Service Offices (FSOs) throughout the country.

Facilities reengineered their support process by developing the FSSP program, a
“shared service” concept that created a single point of contact for all facility work within
a Postal Service area. Under the FSSP program, all Facilities’ services previously
provided by the FSO, Administrative Services, and the area Processing and Distribution
Team were incorporated under the management of the FSO. In addition, the FSO
assumed facility repair work and lessor maintenance enforcement services previously
managed by postmasters.

One component of the FSSP program is the Response Line, a toll-free number Postal
Service personnel use to report all facility repair needs. Dedicated personnel manage
the Response Line and record each problem in the FSSP system, a Web-based
tracking system. The FSSP system contains a report generation function that
management uses as a tool for workload management and budget planning. The
Data Integrity and Reliability of the Facilities                          FA-MA-05-002
 Single Source Provider System


system generates a customer satisfaction survey for every FSO-managed problem.
Additionally, the system allows Postal Service personnel to track the status of individual
problem assignments, provides auto e-mail notification to customers and the facility
maintenance office, and generates reports the FSO and area management can use.
Currently, five of the nine Postal Service areas have implemented the FSSP program,
with plans to complete implementation in all Postal Service areas by the end of fiscal
year 2005.

                             Objective, Scope, and Methodology
The objective of this review was to test the integrity and reliability of data from the FSSP
system relating to maintenance offices’ acceptance of facilities’ repair and alteration
projects. To accomplish our objective, we analyzed documentation from the FSSP
system and independently computed the number of problems accepted and the
corresponding acceptance rates for each district within the Northeast, Southeast, and
Eastern Area offices. We chose these areas because they were the initial Postal
Service areas that fully implemented the FSSP system. We also conducted interviews
with the Postal Service officials with primary responsibility for the FSSP system.

This review was conducted from February through August 2005, in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with appropriate management officials and
included their comments where appropriate.

                                         Prior Audit Coverage

We did not identify any prior audits related to the objective of this review.

                                                   Results
The data in the FSSP system was generally relevant, accurate, and complete.
However, our review identified issues related to internal controls over access to data
and system generated reports related to maintenance offices’ acceptance rates. We
discussed these issues with the appropriate Postal Service officials, who agreed with
our determinations.

Specifically, our review of the system-generated reports identified issues related to
maintenance offices’ repair and alteration project acceptance rates. We analyzed
documentation from the FSSP system and independently recalculated the
corresponding acceptance rates for 34 districts. (See Appendix A.) Based on our
analysis, we determined the acceptance rates contained in the initial reports were
actually higher in all 34 districts, with one district’s rate four times higher than the
recorded acceptance rate. Errors in the reported acceptance rates occurred because
maintenance personnel performed work without completing key data fields in the FSSP



                                                      2
Data Integrity and Reliability of the Facilities                         FA-MA-05-002
 Single Source Provider System


system to indicate whether they accepted or declined facility repair work. In addition,
the formula programmed into the system to calculate the acceptance rates
inappropriately included all calls that were logged through the Response Line, including
those that were the responsibilities of property lessors. The accuracy of system-
generated reports is critical because Postal Service officials use the information to
manage workload assignments and plan budgets. Further, the importance of reporting
accuracy will increase as the FSSP is implemented nationwide and more users in the
FSOs and area and district maintenance offices rely on this data.

We also noted that the capability to delete or backdate transactions was not adequately
restricted, as the Facilities programs analyst, FSSP system administrators, and
Response Line technicians have the capability to delete or backdate completed and
active transactions. Further, the system did not provide a log or other audit trail to track
changed or deleted transactions, therefore not providing a mechanism to monitor or
track such occurrences. The Facilities programs analyst advised that the system was
not programmed to provide an audit trail to track or monitor changes to the data.
Weaknesses in controls over access to data could diminish the integrity and reliability of
computerized data. Further, without an adequate audit trail for deleted transactions,
there is reduced assurance that all calls received were properly logged, tracked, and
resolved. System programming changes could correct the issues identified in the
report.

Recommendation

We recommend the vice president, Facilities, direct the Facilities programs analyst to:

    1. Program the system to prompt users to complete key data fields, including the
       maintenance offices’ action and a date field.

Management’s Comments

Management agreed with the recommendation and stated that they have changed the
functionality of the Response Line application to require users to enter specific data
related to problem completion and maintenance office action. These changes were to
be included in the next program update which was originally scheduled for release by
July 31, 2005. Subsequently, on August 5, 2005, management advised that due to
additional enhancements to the system, the program update has been rescheduled for
release in September 2005. Management’s comments, in their entirety, are included in
Appendix B of this report.

Recommendation

    2. Program the system to compute the maintenance offices’ acceptance rate
       percentages based on the number of problems referred to the maintenance
       offices, rather than all problems logged through the Response Line.



                                                   3
Data Integrity and Reliability of the Facilities                           FA-MA-05-002
 Single Source Provider System



Management’s Comments

Management agreed with the recommendation and stated that they plan to implement a
change to the program logic that will eliminate any landlord maintenance-specific
problems from the calculation for the maintenance acceptance percentage.
Management will include these changes with enhancements scheduled for release by
September 30, 2005.

Recommendation

We recommend the vice president, Facilities, direct the Facilities programs analyst to:

    3. Modify security for the appropriate data files to restrict the authority to delete or
       backdate transactions and to provide an audit trail for deleted and modified
       transactions recorded in the Facilities Single Source Provider system.

Management’s Comments

Management agreed with the recommendation and stated that currently only users with
Administrative or Response Line Tech rights have the authority to delete transactions.
Management also stated they have enhanced the application so that when a user
deletes a call/problem, the status will change but the record will not be removed from
the database. Such data will be available for extract via reports. Management has also
made a change to restrict users from modifying data fields once they complete a call.
These changes were to be included in the next program update which was originally
scheduled for release by July 31, 2005. Subsequently, on August 5, 2005,
management advised that due to additional enhancements to the system, the program
update has been rescheduled for release in September 2005.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1, 2, and 3 and actions
planned should correct the issues identified in the finding.




                                                   4
Data Integrity and Reliability of the Facilities                    FA-MA-05-002
 Single Source Provider System


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Janet Sorensen, Audit
Manager, at (312) 601-3904, or me at (703) 248-2300.

/s/ Colleen A. McAntee

Colleen A. McAntee
Deputy Assistant Inspector General
 for Field Operations

Attachments

cc: William P. Galligan, Jr.
    Steven R. Phelps




                                                   5
Fiscal Year 2005 Facilities Review -                                                                                                                    FA-MA-05-002
 Data Integrity and Reliability of the Facility Single Source Provider System




                                                                                    APPENDIX A

                                  AREA MAINTENANCE OFFICE ACCEPTANCE RATES

                                                                                  Chart A
                                                            Northeast Area Maintenance Office Acceptance Rates


                      100%

                      90%
                                                          82%
                      80%                          75%                                                                                                                   75%
                                       71%
                      70%                                                                                                                                         68%
  Acceptance Rate %




                              58%
                      60%
                                                                                                                                    51%
                      50%
                                                                                                                            43%
                      40%
                                                                                                                 30%
                      30%                                                                             26%

                      20%                                                     16%           14%                                                         15%
                                                                      13%                                                                        12%
                                                                                       9%
                      10%

                       0%




                                                                                                                                                   d
                                  ny




                                                                                       e
                                                                         ut
                                                     on




                                                                                                            ts




                                                                                                                                t




                                                                                                                                                                    rk
                                                                                                                             on




                                                                                                                                                   an
                                                                                        n




                                                                                                       se
                                                                       ic




                                                                                                                                                                  Yo
                             ba




                                                   st




                                                                                     ai




                                                                                                                            m
                                                                    ct




                                                                                                                                                 gl
                                                                                                        u
                                                                                    M
                                                Bo
                             Al




                                                                                                                          er
                                                                  ne




                                                                                                                                                               ew
                                                                                                                                             En
                                                                                                     ch




                                                                                                                        /V
                                                                 on




                                                                                                  sa




                                                                                                                                                              N
                                                                                                                                            ew
                                                                                                                       re
                                                                                               as
                                                                C




                                                                                                                                                              n
                                                                                                                     hi




                                                                                                                                           N




                                                                                                                                                              r
                                                                                                                                                           te
                                                                                              M




                                                                                                                   ps




                                                                                                                                         t




                                                                                                                                                         es
                                                                                                                                      as
                                                                                                                 am




                                                                                                                                                        W
                                                                                                                                       e
                                                                                                                                    th
                                                                                                                 H




                                                                                                                                 u
                                                                                                            ew




                                                                                                                              So
                                                                                                            N




                                             Acceptance Rate per FSSP report        OIG's Recalculated Acceptance Rate




                                                                                              6
Data Integrity and Reliability of the Facilities                                                                                                                   FA-MA-05-002
 Single Source Provider System



                                                                                     Chart B
                                                                Southeast Area Maintenance Office Acceptance Rates


                      100%

                      90%
                                                                                                 83%                                                                         83%
                                                                                                                                                                                               81%
                      80%                  76%            76%                                                       75%
                                                                             71%                                                    73%
                                                   68%                                                                                                                  67%
                      70%                                                                                                                                                              68%
  Acceptance Rate %




                                                                      64%                67%                   64%           64%                           64%
                                  59%
                      60%

                      50%

                      40%

                      30%

                      20%                                                                                                                         16%

                      10%

                       0%




                                                                                                                                a
                                                     a




                                                                        a
                                       a




                                                                                            i




                                                                                                                a




                                                                                                                                                      ia




                                                                                                                                                                        st




                                                                                                                                                                                           e
                                                                                             p
                                                                      r id




                                                                                                                               id
                                                     nt




                                                                                                               id
                                  m




                                                                                                                                                                                        se
                                                                                                                                                  rg
                                                                                          ip




                                                                                                                                                                      a
                                                                                                                               or
                                                                                                             or




                                                                                                                                                                   co
                                                   la
                                   a




                                                                                        ss




                                                                                                                                                                                      es
                                                                    lo




                                                                                                                                                 eo
                                ab




                                                 At




                                                                                                                             Fl
                                                                                                           Fl




                                                                                                                                                                    n
                                                                  lF




                                                                                      si




                                                                                                                                                                                     nn
                                                                                                                                             G




                                                                                                                                                                 Su
                             Al




                                                                                    is




                                                                                                                          th
                                                                                                          th
                                                               tra




                                                                                                                                                                                   Te
                                                                                                                                             h
                                                                                   M




                                                                                                                         u
                                                                                                       or




                                                                                                                                          ut
                                                            en




                                                                                                                      So
                                                                                                   N




                                                                                                                                     So
                                                           C




                                                                     Acceptance Rate per FSSP report                 OIG's Recalculated Acceptance Rate




                                                                                                           7
Data Integrity and Reliability of the Facilities                                                                                                         FA-MA-05-002
 Single Source Provider System



                                                                                             Chart C
                                                                         Eastern Area Maintenace Office Acceptance Rates


                      100%

                      90%
                                                                                                                                                        82%
                                                          78%
                      80%                                                                 76%                                                                           74%
                                                                                                                                          73%          74%
                                             69% 70%                            69%                                                                                             69%
                      70%                                                                                                                                             67%
  Acceptance Rate %




                                           61%                                        63%                                             63%        63%
                                  57%                                      58%                                                                                                61%
                      60%                                                                                                                     56%
                                                                                                            51%                                                 51%
                      50%
                              39%                                                                         42%                                                 43%
                      40%
                                                                     32%
                      30%                                                                                                 24%   26%
                                                               24%
                                                                                                                      19%     22%
                      20%                                                                           15%             15% 17%
                                                                                              9%
                      10%

                       0%
                                                                  a




                                                                                                                      ia


                                                                                                                       a




                                                                                                                       y
                              an




                                                       l




                                                                                                                     na
                                                                                   ti




                                                                                                                       a




                                                                                                                       h
                                                                                                                     as


                                                                                                                       o
                                             e




                                                                                                                      ie




                                                                                                                       o




                                                                                                                       d
                                                                                  s
                                                   it a




                                                                                                                    er
                                                                ni


                                                                                na


                                                                               bu




                                                                                                                    hi
                                                                                                                   an




                                                                                                                   rg
                                                                                                                   or




                                                                                                                    hi
                                          or




                                                                                                                   on
                                                                                                                   in
                                                                                                                  Er




                                                                                                                  in
                             hi




                                                                                                                  ia
                                                  ap


                                                                 a




                                                                                                                 lp
                                                                                                                 O




                                                                                                                 rs
                                                                                                               bu
                                     tim




                                                                                                                sb




                                                                                                                rg
                                                                            n

                                                                             um




                                                                                                                ki




                                                                                                              hm
                                                              lv




                                                                                                               ol
                                                                                                               ol
                           ac




                                                                                                              de
                                                                         ci




                                                                                                             Je
                                                 C




                                                                                                             uc




                                                                                                              n


                                                                                                             Vi
                                                                                                            en
                                                           sy




                                                                                                            tts
                                                                                                            ar
                                                                                                            ar
                                      l




                                                                      in
                          l




                                                                                                           er
                                   Ba




                                                                           ol




                                                                                                           ic
                       pa




                                                                                                         ila
                                                                                                         nt


                                                                                                       -C
                                                                                                         C




                                                                                                         h
                                                          n




                                                                                                         n




                                                                                                        Pi
                                                                                                        re
                                                                     C


                                                                                C




                                                                                                        R
                                                                                                       th




                                                                                                      ut
                                                       en




                                                                                                      er


                                                                                                    Ph
                      Ap




                                                                                                    Ke
                                                                                                     G
                                                                                                   th




                                                                                                    id


                                                                                                    or




                                                                                                 So
                                                                                                   th
                                                    lP




                                                                                                 M
                                                                                                ou




                                                                                                 N


                                                                                                or
                                                 tra




                                                                                            rS




                                                                                              N
                                              en




                                                                                          te
                                                                                          a
                                             C




                                                                                       re
                                                                                      G




                                                                                Acceptance Rate per FSSP report         OIG's Recalculated Acceptance Rate




                                                                                                                8
Data Integrity and Reliability of the Facilities       FA-MA-05-002
 Single Source Provider System


                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                   9
Data Integrity and Reliability of the Facilities        FA-MA-05-002
 Single Source Provider System




                                                   10
